    Management Advisory Report



Single Audit of the State of New
Jersey for the Fiscal Year Ended
         June 30, 2012




     A-77-14-00003 | November 2013
Single Audit of the State of New Jersey for the Fiscal Year
Ended June 30, 2012
A-77-14-00003
November 2013                                                          Office of Audit Report Summary

Objective                                Findings

To report internal control weaknesses,   The single audit reported LWD did not:
noncompliance issues, and
unallowable costs identified in the      •   Provide documentation to support that two DDS non-payroll
single audit to Social Security              expenses were reviewed and approved before disbursement.
Administration (SSA) for resolution          LWD did provide documentation to support the expenses were
action.                                      allowable costs of the SSA program.

Background                               •   Submit the State Agency Report of Obligations for SSA
                                             Disability Programs (Form SSA-4513) for the quarter ended
The New Jersey State Auditor and             June 30, 2012 timely.
KPMG LLP conducted the single audit
of the State of New Jersey. SSA is       Recommendations
responsible for resolving single audit
findings related to its Disability       We recommend that SSA verify that LWD established appropriate
Insurance program. The Department        procedures to:
of Labor and Workforce Development
(LWD) is the New Jersey Disability       1. Maintain documentation supporting DDS expenses.
Determination Services’ (DDS) parent
                                         2. Ensure timely submission of the Form SSA-4513.
agency.
MEMORANDUM
Date:      November 27, 2013                                                         Refer To:

To:        Gary S. Hatcher
           Senior Advisor
           Records Management and Audit Liaison Staff
From:      Inspector General
Subject:   Single Audit of the State of New Jersey for the Fiscal Year Ended June 30, 2012
           (A-77-14-00003)

           This report presents the Social Security Administration’s (SSA) portion of the single audit of the
           State of New Jersey for the Fiscal Year ended June 30, 2012. 1 Our objective was to report
           internal control weaknesses, noncompliance issues, and unallowable costs identified in the single
           audit to SSA for resolution action.

           The New Jersey State Auditor and KPMG LLP performed the audit. The results of the desk
           review conducted by the Department of Health and Human Services (HHS) concluded that the
           audit met Federal requirements. In reporting the results of the single audit, we relied entirely on
           the internal control and compliance work performed by the New Jersey State Auditor and KPMG
           LLP and the reviews performed by HHS. We conducted our review in accordance with the
           Council of the Inspectors General on Integrity and Efficiency’s Quality Standards for Inspection
           and Evaluation.

           For single audit purposes, the Office of Management and Budget assigns Federal programs a
           Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability Insurance (DI) and
           Supplemental Security Income (SSI) programs are identified by CFDA number 96. SSA is
           responsible for resolving single audit findings reported under this CFDA number.

           The New Jersey Disability Determination Services (DDS) performs disability determinations
           under SSA’s DI and SSI programs in accordance with Federal regulations. The DDS is
           reimbursed for 100 percent of allowable costs. The Department of Labor and Workforce
           Development (LWD) is the New Jersey DDS’ parent agency.




           1
            State of New Jersey, Single Audit Report, Year Ended June 30, 2012
           http://www.state.nj.us/treasury/omb/finmgmt/Single_Audit/12Report.pdf (last viewed October 24, 2013).
Page 2 - Gary S. Hatcher

The single audit reported LWD did not:

•      Provide documentation to support that two DDS non-payroll expenses were reviewed and
       approved before disbursement. 2 LWD did provide documentation to support the expenses
       were allowable costs of the SSA program. The corrective action plan indicated certain
       documents could not be located because of a transition of personnel in the Division of
       Finance and Accounting (DFA) and that DFA will strengthen its controls over the filing of
       supporting documents.

•      Submit the State Agency Report of Obligations for SSA Disability Programs (Form
       SSA-4513) for the quarter ended June 30, 2012 timely. 3 The corrective action plan indicated
       DFA filed the delinquent Form SSA-4513 in February 2013 and that it will strengthen its
       control over the filing of Government reports.

We recommend that SSA verify that LWD established appropriate procedures to:

1.     Maintain documentation supporting DDS expenses.

2. Ensure timely submission of the Form SSA-4513.

Please send copies of the final Audit Clearance Document to Shannon Agee. If you have
questions, contact Shannon Agee at (877) 405-7694, extension 18802
or Shannon.Agee@ssa.gov.




                                                 Patrick P. O’Carroll, Jr.

Attachment

cc:
Lynn Bernstein




2
    Id. at finding 12-33.
3
    Id. at finding 12-34.
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
